Nos. 20-512, 20-520

tbe upretne Court
of the Uniteb 6tatet
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,
Petitioner,
SHAWNE ALSTON, ET AL.,
Respondents.
AMERICAN ATHLETIC CONFERENCE, ET AL.,
Petitioners,
SHAWNE ALSTON, ET AL.,
Respondents.
On Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit

BRIEF OF OPEN MARKETS INSTITUTE, COLOR OF
CHANGE, NATIONAL EMPLOYMENT LAW PROJECT,
STRATEGIC ORGANIZING CENTER,
TOWARDS JUSTICE,
AND SCHOLARS OF ECONOMICS AND LAW
AS AMICI CURIAE IN SUPPORT OF RESPONDENTS
JAY L. HIMES
Counsel of Record
LABATON SUCHAROW LLP
140 Broadway
New York, NY 10005
(212) 907-0700
jhimes@labaton.coin
(Counsel continued on inside cover)

SANDEEP VAHEESAN
OPEN MARKETS INSTITUTE
1440 G Street, NW
Washington, DC 20005

MARKA PETERSON
STRATEGIC ORGANIZING
CENTER
1900 L Street, NW Suite 900
Washington, DC 20036

NAJAH FARLEY
NATIONAL EMPLOYMENT
LAW PROJECT
90 Broad Street, Suite 1100
New York, NY 10004
Counsel for Amici Curiae

1

TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii

INTEREST OF AMICI CURIAE

1

SUMMARY OF ARGUMENT

3

ARGUMENT
I.

The Sherman Act Protects Workers and
Other Sellers from Purchasers' Restraints
of Trade and Monopolistic Practices

12

12

II. The Ninth Circuit's Application of the Rule
of Reason Subverts the Sherman Act's
Protection of Workers and Other Sellers and
Permits Courts to Engage in Unbounded
Balancing
16
The Ninth Circuit's Application of the
Rule of Reason Subordinates Sellers'
Interests to Customers' Interests

17

This Court Has Directed the Lower
Courts to Refrain from Unbounded
Cost-Benefit Analysis Under the Rule
of Reason
19
III. The Ninth Circuit Should Have Considered
Only the Restraint's Harms and Benefits to
College Basketball and Football Players
23
IV. The NCAA Cannot Evade the Sherman Act
by Using Special Labels or Citing A History
25
of Trade Restraints
CONCLUSION

29

11

TABLE OF AUTHORITIES
Cases
American Needle, Inc. v. National Football League,
560 U.S. 183 (2010)
10, 11, 26, 28
Anderson v. Shipowners' Ass'n of Pacific Coast,
272 U.S. 359 (1926)
9, 14
Andrus v. Glover Construction Co.,
446 U.S. 608 (1980)
Apple Inc. v. Pepper,
139 S.Ct. 1514 (2019)
Associated General Contractors of Cal., Inc.
v. Cal. State Council of Carpenters,
459 U.S. 519 (1983)
Associated Press v. United States,
326 U.S. 1 (1945)
California Dental Association v. FTC,
526 U.S. 756 (1999)
California v. FPC,
369 U.S. 482 (1962)

29
5, 15

24
11, 29
24
10, 27

City of Mt. Pleasant v. Associated Electric Co-op., Inc.,
838 F.2d 268 (8th Cir. 1988)
28
Continental T.V., Inc. v. GTE Sylvania Inc.,
433 U.S. 36 (1977)

20

Freeman v. San Diego Association of Realtors,
322 F.3d 1133 (9th Cir. 2003)

28

FTC v. Ind. Federation of Dentists,
476 U.S. 447 (1986)

24

111

Gordon v. New York Stock Exchange, Inc.,
422 U.S. 659 (1975)

27

International Boxing Club of New York, Inc. v.
United States,
358 U.S. 242 (1959)

14

Knevelbaard Dairies v. Kraft Foods, Inc.,
232 F.3d 979 (9th Cir. 2000)

16, 24

Law v. National Collegiate Athletic Ass'n,
134 F.3d 1010 (10th Cir. 1998)

9, 15, 25

Leegin Creative Leather Products, Inc. v. PSKS, Inc.,
551 U.S. 877 (2007)
20
Mandeville Island Farms, Inc. v.
American Crystal Sugar Co.,
334 U.S. 219 (1948)
National Collegiate Athletic Ass'n v.
Board of Regents of Univ. of Okla.,
468 U.S. 85 (1984)

4, 5, 14, 24

passim

National Society of Professional Engineers v.
United States,
435 U.S. 679 (1978)
4, 6, 17, 20
Ohio v. American Express Co.,
138 S. Ct. 2274 (2018)

16, 17

Palmer v. BRG of Georgia, Inc.,
498 U.S. 46 (1990)

11, 28

Polygram Holding, Inc. v. FTC,
416 F.3d 29 (D.C. Cir. 2005)

9, 25

Radovich v. National Football League,
352 U.S. 445 (1957)

14

iv
Smith v. Pro Football, Inc.,
593 F.2d 1173 (D.C. Cir. 1978)

6, 20, 21, 22

Swift & Co. v. United States,
196 U.S. 375 (1905)

5, 13

Timken Roller Bearing Co. v. United States,
341 U.S. 593 (1951), overruled on other grounds
by Copperweld Corp. v. Independence Tube Corp.,
467 U.S. 752 (1984)
11, 28, 29
Todd v. Exxon Corp.,
275 F.3d 191 (2d Cir. 2001)

16

United States v. Borden Co.,
308 U.S. 188 (1939)

10, 27

United States v. Philadelphia National Bank,
374 U.S. 321 (1963)
United States v. Sealy, Inc.,
388 U.S. 350 (1967)
United States v. Topco Associates, Inc.,
405 U.S. 596 (1972)

21
10, 26
passim

Vogel v. American Society of Appraisers,
744 F.2d 598 (7th Cir. 1984)

16

West Penn Allegheny System, Inc. v. UPMC,
628 F.3d 85 (3d Cir. 2010)

16

Weyerhaeuser Co. v.
Ross-Simmons Hardwood Lumber Co.,
549 U.S. 312 (2007)

15

Statutes
Sherman Act
Sherman Act § 1

passim
9, 11, 28

V

Legislative Materials
21 Cong. Rec. 1768 (1890)

13

21 Cong. Rec. 2457 (1890)

13

21 Cong. Rec. 2461 (1890)

4, 12

21 Cong. Rec. 2170 (1890)

13

21 Cong. Rec. 4098 (1890)

13

Other Authorities
Allensworth, Rebecca Haw, The Commensurability
Myth in Antitrust, 69 Vand. L. Rev. 1 (2016)
22
Crane, Daniel A., Balancing Effects Across Markets,
80 Antitrust L.J. 397 (2015)
22
Kirkwood, John B., The Essence of Antitrust:
Protecting Consumers and Small Suppliers
from Anticompetitive Conduct,
81 Fordham L. Rev. 2425 (2013)

13

Millon, David, The Sherman Act and the Balance
of Power, 61 S. Cal. L. Rev. 1219 (1988)

12

Nagy, Tibor, The "Blind Look" Rule of Reason:
Federal Courts' Peculiar Treatment of
NCAA Amateurism Rules,
15 Marq. Spors L. Rev. 331 (2005)
Thorelli, Hans B.,
The Federal Antitrust Policy (1955)

8, 19
12

Werden, Gregory J., Monopsony and the Sherman
Act: Consumer Welfare in a New Light,
3, 12
74 Antitrust L.J. 707 (2007)

1
INTEREST OF AMICI CURIAE1
The Open Markets Institute (OMI) is a nonprofit organization dedicated to promoting fair and
competitive markets. It does not accept any funding or
donations from for-profit corporations. Its mission is to
safeguard our political economy from concentrations of
private power that undermine fair competition and
threaten liberty, democracy, and prosperity. OMI
regularly provides expertise on antitrust law and
competition policy to Congress, federal agencies,
courts, journalists, and members of the public.
Color Of Change is the nation's largest online
racial justice organization that helps people respond
effectively to injustice in the world around us. As a
national online force driven by 7 million members, we
move decision-makers in corporations and government
to create a more human and less hostile world for
Black people in America.
The National Employment Law Project (NELP)
is a non-profit legal organization with fifty years of
experience advocating for the employment rights of
workers in low-wage industries. NELP's areas of
expertise include the workplace rights of workers, and
the ways in which companies use unilaterally imposed
labels and structures on their workers to carve
themselves out of workplace protection laws. NELP
collaborates closely with community-based worker
centers, unions, and academics, litigated, and
participated as amicus in numerous cases addressing
1 No counsel for a party authored this brief in whole or in part
and no person other than amici and their counsel made a
monetary contribution to its preparation or submission. The
parties' letters consenting to the filing of amicus briefs are on file
with the Clerk.

2
the rights of contingent workers under federal and
state laws in federal and state and the U.S. Supreme
Court. NELP has submitted testimony to the U.S.
Congress and state legislatures on numerous
occasions. NELP has an interest in this case because
of the possible implications to workplace laws,
workers, and our society.
The Strategic Organizing. Center (SOC) is a
democratic federation of labor unions representing
millions of working people. The organization strives to
ensure that every worker has a living wage, benefits to
support their family and dignity in retirement. The
SOC advocates not just for jobs, but for good jobs: safe,
equitable workplaces where all employees
meaningfully participate in the decisions affecting
their employment. The SOC believes that robust
antitrust enforcement and regulation can bring more
equity to the balance of power between working people
and those who profit from their labor.
Towards Justice is a non-profit legal
organization that uses impact litigation, policy
advocacy, and collaboration with workers and workers'
organizations to advance economic justice and attack
systemic impediments to worker power. Our litigation
on behalf of workers addresses a range of important
workplace issues, including workplace safety and
health, systemic racial discrimination, misclassification,
the abuses of forced arbitration, exploitation• of the
foreign guest worker programs, and forced labor.
Towards Justice has supported workers in litigating
several cases under the antitrust laws that have
sought to protect the notion that one of the pillars of
workplace dignity is workers' right to shop between
employers for better treatment.

3
Marshall Steinbaum is assistant professor of
economics at the University of Utah. He researches
market power in labor markets and more generally,
including its applications in antitrust, labor
regulation, higher education, and other policy areas.
Sanjukta Paul is assistant professor of law and
Romano Stancroff Research Scholar at Wayne State
University. Her work on antitrust and labor has
appeared or is forthcoming in the Yale Law Journal,
UCLA Law Review, Law & Contemporary Problems,
and the Berkeley Journal of Employment & Labor
Law, and her book in the same area will be published
by Cambridge University Press.
Veena Dubal is professor of law at the
University of California, Hastings College of the Law.
Her research focuses on the intersection of law and
social change in the work context. She joined the
Hastings Faculty in 2015, after a post-doctoral
fellowship at Stanford University (also her
undergraduate alma mater). Prior to that, she received
her J.D. and Ph.D. from UC Berkeley, where she used
historical and ethnographic methodologies to study
workers and worker collectivities in the San Francisco
taxi industry. Her work on taxi workers, Uber drivers,
and Silicon Valley tech workers has been featured in
top-ranked law reviews and featured in the local and
national media.
SUMMARY OF ARGUMENT
The Sherman Act protects sellers of goods and
services, including workers who sell their labor, from
powerful purchasers. Gregory J. Werden, Monopsony
and the Sherman Act: Consumer Welfare in a New
Light, 74 Antitrust L.J. 707, 714 (2007). Senator
Sherman himself stated that trusts and monopolies

4
"regulate prices at their will, depress the price of what
they buy and increase the price of what they sell." 21
Cong. Rec. 2461 (1890). Accordingly, "[t]he [Sherman
Act] does not confine its protection to consumers, or to
purchasers, or to competitors, or to sellers."
Mandeville Island Farms, Inc. v. American Crystal
Sugar Co., 334 U.S. 219, 236 (1948). To ensure
protection of upstream market participants, antitrust
analysis under the rule of reason is carefully
circumscribed. It "does not open the field of antitrust
inquiry to any argument in favor of a challenged
restraint that may fall within the realm of reason."
National Society of Professional Engineers v. United
States, 435 U.S. 679, 688 (1978).
The Ninth Circuit undercut both the Sherman
Act's protection of sellers and this Court's guidance on
analyzing restraints of trade. The respondents—
current and former college basketball and football
players—sell their athletic services to the member
colleges of the National Collegiate Athletic Association
(NCAA). They allege that the NCAA and its member
colleges collusively restrained intercollegiate
competition for their athletic services by capping
compensation for players at the cost of attendance and
thereby deprived them of the right to earn competitive
pay for their hard work and talent.2 Once the college
athletes established a prima facie case under the rule

The players generate billions in annual revenues for the NCAA
and its member colleges. A fair market for their athletic services
.ultimately requires both competition among colleges and
collective organizations for players. In general, labor markets
serve workers best when employers compete for their skills and
workers exercise collective power through labor unions.
2

5
of reason,3 the district court allowed the NCAA to
rebut this presumption by showing benefits to other
groups, such as viewers of college sports, and credited
one of these justifications: purported viewer interest in
college sports on account of limited player
compensation. The Ninth Circuit affirmed the district
court's ruling, including its balancing of harms to the
college athletes from the NCAA's trade restraints
against their supposed benefits to viewers of college
sports.
In accordance with congressional intent, since
the early years of the Sherman Act, this Court has
consistently held that the law protects sellers from
restraints of trade and monopolistic practices. In Swift
& Co. v. United States, 196 U.S. 375 (1905), this Court
upheld the antitrust liability of stockyard owners who
had collusively suppressed the price of cattle paid to
ranchers. In a later buyer-side price-fixing case, this
Court stated explicitly that the Sherman Act protects
both purchasers and sellers: "The Act is
comprehensive in its terms and coverage, protecting
all who are made victims of the forbidden practices by
whomever they may be perpetrated." Mandeville
Island Farms, 334 U.S. at 236 (emphasis added). More
recently, this Court held that a monopolistic
intermediary inflicts distinct injuries on purchasers
and sellers, and that both groups have the right to
recover antitrust damages from the monopolist. Apple
Inc. v. Pepper, 139 S. Ct. 1514, 1525 (2019).

This Court has held that the NCAA's horizontal restraints on a
downstream market (television broadcast of football games)
should be evaluated under the rule of reason and not subject to
per se invalidation. National Collegiate Athletic Ass'n v. Board of
Regents of Univ. of Okla., 468 U.S. 85, 86 (1984).
3

6
To assure the Sherman Act's protection of
multiple groups of economic actors, courts, in a rule of
reason analysis, should look only at a restraint's
effects in the market where the plaintiffs either offer
their services or purchase their goods. They should not
"sacrifice competition in one portion of the economy for
greater competition in another portion[.]" United
States v. Topco Associates, Inc., 405 U.S. 596, 611
(1972). Accordingly, the rule of reason is limited to a
challenged restraint's costs and benefits for only the
injured class. The Court made this clear in National
Society of Professional Engineers:
Contrary to its name, the Rule does not open the
field of antitrust inquiry to any argument in
favor of a challenged restraint that may fall
within the realm of reason. Instead, it focuses
directly on the challenged restraint's impact on
competitive conditions.
*

*

*

[T]he purpose of [antitrust] analysis is to form a
judgment about the competitive significance of
the restraint; it is not to decide whether a policy
favoring competition is in the public interest, or
in the interest of the members of an industry.
Subject to exceptions defined by statute, that
policy decision has been made by the Congress.
435 U.S. at 688, 692. In the wake of Professional
Engineers, a court of appeals applied the rule of reason
to a labor-market restraint in professional sports and
rejected an unbounded rule of reason. Smith v. Pro
Football, Inc., 593 F.2d 1173, 1186 (D.C. Cir. 1978).
From an institutional perspective, the courts
are ill-equipped to engage in a broad cross-market
cost-benefit analysis under the rule of reason. In
consequence, "to make the delicate judgment on the

7
relative values to society of competitive areas of the
economy, the judgment of the elected representatives
of the people is required." Topco, 405 U.S. at 612.
Because such balancing requires evaluating numerous
considerations, the task should be undertaken by
democratically accountable legislators, rather than
claimed by judges. In his concurrence below, Judge
Smith warned against balancing harms and benefits
in separate markets, writing that, to do so, courts
"must—implicitly or explicitly—make value judgments
by determining whether competition in the collateral
market is more important than competition in the
defined market." Pet. App. 64a (No. 20-512). As the
Topco Court recognized, "[p]rivate forces are too
keenly aware of their own interests in making such
decisions and courts are ill-equipped and ill-situated
for such decisionmaking." 405 U.S. at 611.
Under the Ninth Circuit's articulation of the
rule of reason, firms with market power can inflict
harm on sellers through restraints of trade and
monopolization and defend themselves by showing
benefits to another group. This type of balancing
sacrifices sellers' right to a fair, competitive
marketplace in order to serve downstream customers.
The court gave powerful purchasers significant
freedom to disempower workers and other sellers
through restraints of trade so long as they can show
offsetting gains to another group, here viewers of
college sports. As such, firms would be permitted to
maintain their buy-side restraints in partial or full
measure—injuring one group of economic actors in the
name of benefitting another.
In this case, the results are especially perverse.
Under the Ninth Circuit's ruling, colleges are given
broad latitude to deprive athletes of the right to earn
a fair, competitive wage to satisfy the purported

8
preferences of sports fans. This expansive rule of
reason "leads to the abhorrent result of allowing
purchasers of labor to unlawfully exploit one class of
people (in this case, predominantly African American
college athletes) for the purpose of benefiting another,
presumably a more important class of people (the
consumers of college athletics, in particular the
viewers of televised men's football and basketball
games)." Tibor Nagy, The "Blind Look" Rule of Reason:
Federal Courts' Peculiar Treatment of NCAA
Amateurism Rules, 15 Marq. Sports L. Rev. 331, 36667 (2005).
In evaluating the challenged restraint, the
courts below should have limited their rule of reason
analysis to the effects on college basketball and
football players—and not considered the effects on
other groups. Once the college athletes established
their prima facie case, the district court should have
considered only the presumptively illegal restraint's
offsetting benefits to the injured college athletes
themselves. The restraint's supposed benefits to other
groups, such as viewers of college sports, should have
been disregarded. This bounded approach ensures that
the Sherman Act fully protects sellers of goods and
services, such as the college athletes here, from
purchasers' restraints of trade.
Equally important, a rule of reason analysis
does not need to be exhaustive under all
circumstances. Sometimes, it can "be applied in the
twinkling of an eye." Board of Regents, 468 U.S. at 109
n.39. The NCAA's restraints resemble those that have
condemned under an abbreviated rule of reason

9
analysis. Indeed, the NCAA's restraints at issue would
be per se illegal, but for (arguably) Board of Regents.4
The Tenth Circuit affirmed a "quick look"
condemnation of the NCAA's restraints capping the
compensation of assistant coaches in men's basketball.
Law u. National Collegiate Athletic Ass'n, 134 F.3d
1010, 1020 (10th Cir. 1998). Courts have also
invalidated restraints that limit horizontal
competition between actual or potential competitors
without a full rule of reason inquiry. See, e.g.,
Polygram Holding, Inc. u. FTC, 416 F.3d 29, 37 (D.C.
Cir. 2005) ("An agreement between joint venturers to
restrain price cutting and advertising with respect to
products not part of the joint venture looks
suspiciously like a naked price fixing agreement
between competitors, which would ordinarily be
condemned as per se unlawful."). Given the close
resemblance between per se illegal horizontal
agreements and the NCAA's restraints, an
abbreviated rule of reason is warranted here—and
sufficient to invalidate the NCAA's compensation
restrictions. Law, 134 F.3d at 1020.
Contrary to the assertions of the NCAA and its
conferences, this Court has long held that labels such
as "joint venture" cannot immunize horizontal
collusion from the Sherman Act. The relevant question
for courts concerns not' the label but the restraint's
substance. A joint venture is subject to antitrust
scrutiny under Section 1 of the Sherman Act if "the
agreement joins together 'independent centers of
4 Because plaintiffs argue for affirmance based on the lower
courts' rule of reason analysis, no issue of per se condemnation is
raised on this appeal. Thus, for now the NCAA has dodged a
bullet. See, e.g., Anderson v. Shipowners Assn. of Pacific Coast,
272 U.S. 359 (1926).

10
decisionmaking.'" American Needle, Inc. v. National
Football League, 560 U.S. 183, 196 (2010). So, merely
creating a joint venture does not immunize all
arrangements between the parties involved from
antitrust scrutiny. Id. at 199. Rather, "[w]e seek the
central substance of the situation, not its periphery,
and in this pursuit, we are moved by the identity of the
persons who act, rather than the label of their hats."
United States v. Sealy, Inc., 388 U.S. 350, 353 (1967).
Applying this principle, this Court has "repeatedly"
found a Section 1 violation when a single entity was
"controlled by a group of competitors and served, in
essence, as a vehicle for ongoing concerted activity."
American Needle, 560 U.S. at 191.
The NCAA's appeal to "amateurism" is equally
unhelpful to its position. As with its joint venture
argument, by repeating "amateurism" to justify its
restraints on player compensation, the NCAA again
obscures substance with labels. This Court's language
in Board of Regents about amateurism is dictum—an
observation about the character of NCAA intercollegiate
athletics that was not necessary nor relevant to the
holding in the decision. Board of Regents, 468 U.S. at
129 (invalidating restrictions on television
broadcasting of college football games). This dictum is
not nearly enough to displace the antitrust laws.
"[R]epeals by implication are not favored," United
States v. Borden Co., 308 U.S. 188, 198 (1939). See also
California v. FPC, 369 U.S. 482, 485 (1962)
("Immunity from the antitrust laws is not lightly
implied.").
The NCAA's history of trade restraints against
college athletes also offers no defense. Long-standing
violation of the Sherman Act—or of any law for that
matter—is no basis for claiming either immunity or
even a right to more limited legal oversight: "a history

11
of concerted activity does not immunize' conduct from
§ 1 scrutiny." American, Needle, 560 U.S. at 198. The
restraint on competition among potential rivals—here,
competition among NCAA members for athletic
talent—is itself sufficient for antitrust condemnation.
See Palmer v. BRG of Georgia, Inc., 498 U.S. 46, 49-50
(1990) (per curiam) (ruling that market allocation
schemes are illegal "regardless of whether the parties
split a market within which both do business or
whether they merely reserve one market for one and
another for the other.").
If this Court were to allow the NCAA to use
labels and its own history to justify its conduct, the
Sherman Act would become a dead letter. By adopting
benign-sounding labels for their illegal conduct and
invoking their history of lawbreaking as a defense,
firms and associations of firms could unilaterally
exempt themselves from the Sherman Act and other
antitrust laws. Enabling private prerogative to
override federal legislation would make a mockery of
the rule of law. See Timken Roller Bearing Co. v.
United States, 341 U.S. 593, 598 (1951) ("Nor do we
find any support in reason or authority for the
proposition that agreements between legally separate
persons and companies to suppress competition among
themselves and others can be justified by labeling the
project a 'joint venture.' Perhaps every agreement and
combination to restrain trade could be so labeled."),
overruled on other grounds by Copperweld Corp. v.
Independence Tube Corp., 467 U.S. 752 (1984).
Accordingly, when Congress seeks to authorize
competitor coordination otherwise illegal under the
antitrust laws, "it has done so expressly by legislation."
Associated Press v. United States, 326 U.S. 1, 14 (1945)
(emphasis added). This prerogative of Congress should
be respected here.

12
ARGUMENT
I.

The Sherman Act Protects Workers and
Other Sellers from Purchasers' Restraints
of Trade and Monopolistic Practices

The Sherman Act protects sellers of goods and
services from powerful purchasers. In enacting the
law, Congress aimed to safeguard the freedom of
workers, farmers, and other sellers from monopolies
and trusts. See Gregory J. Werden, Monopsony and the
Sherman Act: Consumer Welfare in a New Light, 74
Antitrust L.J. 707, 714 (2007) ("The legislative history
leaves no doubt that Congress intended to protect
sellers victimized by trusts and other conduct within
the scope of the Sherman Act's prohibitions."). Indeed,
because these powerful corporations exploited
farmers, workers, and business proprietors, they were
the principal opponents of the trusts and monopolies
and fought for antitrust legislation at the federal and
state levels in the late nineteenth century. David
Millon, The Sherman Act and the Balance of Power, 61
S. Cal. L. Rev. 1219, 1226 (1988). See generally Hans
B. Thorelli, The Federal Antitrust Policy 143-52
(1955). Given this clear congressional intent and
historical context, this Court has long held that the
antitrust laws protect sellers from buyers' restraints of
trade and monopolization.
Floor remarks from the Sherman Act debates
illustrate Congress's intent to protect sellers. Senator
Sherman condemned the trusts for their power over
both buyers and sellers: "They regulate prices at their
will, depress the price of what they buy and increase
the price of what they sell." 21 Cong. Rec. 2461 (1890).
Senator George, a leading proponent of antitrust
legislation, similarly attacked the trusts' power as
both purchasers and sellers:

13
They operate with a double-edged sword. They
increase beyond reason the cost of the
necessaries of life and business and they
decrease the cost of raw material, the farm
products of the country. They regulate prices at
their will, depress the price of what they buy
and increase the price of what they sell.
21 Cong. Rec. 1768 (1890). See also 21 Cong. Rec. 2457
(1890) (remarks of Sen. Sherman) (A trust can
"commann the price of labor without fear of strikes,
for in its field it allows no competitors.").
Reflecting this legislative interest in the
autonomy and well-being of sellers, members of
Congress repeatedly cited the beef trust for its
dominance over both ranchers and consumers. The
Senate even established a special committee to
investigate it. John B. Kirkwood, The Essence of
Antitrust: Protecting Consumers and Small Suppliers
from Anticompetitive Conduct, 81 Fordham L. Rev.
2425, 2435 (2013). Addressing the power of the beef
trust, Representative Taylor asserted, "This monster
robs the farmer on the one hand and the consumer on
the other." 21 Cong. Rec. 4098 (1890). In a similar
spirit, Senator Allison observed that "there is a
combination in the city of Chicago which not only
keeps down the price of cattle upon the hoof, but also .
. . make[s] the consumers of beef pay a high price for
that article." 21 Cong. Rec. 2470 (1890).
In accordance with Congress's intent, this
Court, since the early years of the Sherman Act, has
held that the law protects sellers from restraints of
trade and monopolistic practices. In Swift & Co. v.
United States, 196 U.S. 375 (1905), the Court affirmed
the liability of stockyard owners who had collusively
suppressed the price of cattle paid to ranchers. The

14
Court also condemned a cartel of shipping employers
for suppressing wages. Anderson v. Shipowners' Ass'n
of Pacific Coast, 272 U.S. 359, 362, 365 (1926).
In a subsequent buyer-side price-fixing case, the
Supreme Court reiterated that the Sherman Act
protects both purchasers and sellers:
The statute does not confine its protection to
consumers, or to purchasers, or to competitors,
or to sellers. . . . The Act is comprehensive in its
terms and coverage, protecting all who are made
victims of the forbidden practices by whomever
they may be perpetrated.
Mandeville Island Farms, Inc. v. American Crystal
Sugar Co., 334 U.S. 219, 236 (1948) (emphasis added).
Applying this principle of protecting all victims
of antitrust violations, including sellers, this Court
held that a football player-coach who alleged a group
boycott of his services had the right to take his claim
to trial. Radovich v. National Football League, 352
U.S. 445, 453-54 (1957). Two years later, the Court
affirmed a judgment holding that a boxing association
had improperly monopolized the market for
championship contests by imposing exclusivity
contracts on the leading fighters. International Boxing
Club of New York, Inc. v. United States, 358 U.S. 242,
262-63 (1959).
The Sherman Act's protection of sellers has not
diminished over time, as seen in more recent decisions.
In a predatory bidding case, the Court recognized
buyer-side power as symmetric with seller-side power:
"Monopsony power is market power on the buy side of
the market. As such, a monopsony is to the buy side of
the market what a monopoly is to the sell side and is
sometimes colloquially called a 'buyer's monopoly."'

15
Weyerhaeuser Co. v. Ross-Simmons Hardwood Lumber
Co., 549 U.S. 312, 320 (2007) (citations omitted).
And in a 2019 decision, this Court re-iterated
the antitrust protection of sellers, recognizing that a
monopolistic intermediary inflicts distinct injuries on
purchasers and sellers. Both have the right to recover
antitrust damages from the monopolist:
[S]ome downstream iPhone consumers have
sued Apple on a monopoly theory. And it could
be that some upstream app developers will also
sue Apple on a monopsony theory. In this
instance, the two suits would rely on
fundamentally different theories of harm and
would not assert dueling claims to a common
fund . . . .
Apple Inc. v. Pepper, 139 S. Ct. 1514, 1525 (2019).
Applying these precedents, the lower courts
have held that the Sherman Act protects sellers. The
Tenth Circuit struck down NCAA rules that capped
compensation for assistant coaches in men's
basketball, writing that a buyer-side "cartel ultimately
robs the suppliers of the normal fruits of their
enterprises." Law v. National College Athletic Ass'n,
134 F.3d 1010, 1022 (10th Cir. 1998). Similarly, the
Ninth Circuit described buyer-side collusion as
follows:
When horizontal price fixing causes buyers to
pay more, or sellers to receive less, than the
prices that would prevail in a market free of the
unlawful trade restraint, antitrust injury
occurs. This is seen most often in claims by
overcharged buyers; as to underpaid sellers it is
less common in the reported cases, but is
equally true.

16
Knevelbaard Dairies v. Kraft Foods, Inc., 232 F.3d 979,
988 (9th Cir. 2000). See also, e.g., Todd v. Exxon Corp.,
275 F.3d 191, 201 (2d Cir. 2001) (Sotomayor, J.) ("[A]
horizontal conspiracy among buyers to stifle
competition is as unlawful as one among sellers.");
West Penn Allegheny System, Inc. v. UPMC, 627 F.3d
85, 105 (3d Cir. 2010) ("Highmark's improperly
motivated exercise of monopsony power . . . was
anticompetitive and cannot be defended on the sole
ground that it enabled Highmark to set lower
premiums on its insurance plans."); Vogel v. American
Society of Appraisers, 744 F.2d 598, 601 (7th Cir. 1984)
(Posner, J.) ("[B]uyer cartels, the object of which is to
force the prices that suppliers charge the members of
the cartel below the competitive level, are illegal per
se.").
II.

The Ninth Circuit's Application of the
Rule of Reason Subverts the Sherman
Act's Protection of Workers and Other
Sellers and Permits Courts to Engage in
Unbounded Balancing
The Ninth Circuit's application of the rule of
reason undermines the Sherman Act's protection of
sellers and is inconsistent with this Court's guidance
on applying the rule of reason. The court of appeals
compared the proven harms of the challenged
restraints to the college athletes, sellers of their
services, against the purported benefits to viewers of
college sporting events, consumers in this case. By
engaging in this cross-market balancing, the court of
appeals undercut the Sherman Act's protection of
sellers.5 This type of balancing also contravenes this
This case bears no factual resemblance to Ohio v. American
Express Co., 138 S. Ct. 2274 (2018), in which this Court permitted
a rule of reason analysis that took account of effects on two
5

17
Court's directive that the rule of reason "does not open
the field of antitrust inquiry to any argument in favor
of a challenged restraint that may fall within the
realm of reason." National Society of Professional
Engineers v. United States, 435 U.S. 679, 688 (1978).
A. The Ninth Circuit's Application of the
Rule. of Reason Subordinates Sellers'
Interests to Customers' Interests
While holding that the NCAA's restraints
injured college athletes, the Ninth Circuit weighed
this injury to the athletes against asserted benefits to
viewers of college sports. To be sure, the court did not
credit most of the NCAA's proffered benefits to viewers
(or the athletes). However, the court did conclude the
NCAA established that sports fans value college
sports, in part, because of the tight restrictions on
player compensation, in contrast to professional sports
in which caps on player compensation are limited or
non-existent. In other words, the court balanced the
demonstrated injury to college athletes against the
benefit to viewers of college sports.
Under the Ninth Circuit's formulation of the
rule of reason, firms with market power can inflict
harm on sellers through restraints of trade and
monopolization and defend by showing offsetting
benefits to another group, such as downstream
purchasers of a different product altogether. Firms can
be found liable, but subject to only a limited remedy,
as the NCAA was here. Powerful purchasers would

distinct groups affected by the restraint. Unlike American
Express, the NCAA does not "facilitate a single, simultaneous
transaction"—in American, Express, between cardholders and
merchants—in a "transaction" created "simultaneous Ely]" each
and every time the restraint operated. Id. at 2286.

18
have significant freedom to disempower workers and
other sellers and deprive them of a fair, competitive
income through restraints of trade so long as they
could show offsetting gains to their customers or
another group. Equally troubling, under this
formulation of the rule of reason, defendants can
potentially escape liability entirely if they can
demonstrate that their restraint's benefits to another
group exceed the harm to workers or other sellers.
Instead of protecting college athletes in full
measure, the Ninth Circuit subordinated their
interests to the interests of sports fans. This Court has
made clear that the Sherman Act protects workers and
other sellers of services just as much as it protects
customers and end-user consumers. See Part I, supra.
The court of appeals' decision, however, grants
significant latitude to firms to injure sellers through
restraints of trade, provided that they can establish
offsetting benefits to another group.
This type of balancing sacrifices sellers' right to
a fair marketplace in order to serve buyers' purported
preferences. In his concurrence, Judge Smith wrote
that this balancing "leave [s] Student-Athletes with
little recourse under the antitrust laws. . . . and thus
denie[s] the freedom to compete and, in turn, of
compensation they would receive in the absence of the
restraints." Pet. App. 66a (No. 20-512). Here, the
results are especially indefensible. Under the Ninth
Circuit ruling, colleges are given broad latitude to
deprive athletes of the right to earn a fair, competitive
wage to satisfy the supposed preferences of members
of the viewing public. The expansive rule of reason
"leads to the abhorrent result of allowing purchasers
of labor to unlawfully exploit one class of people (in
this case, predominantly African American college
athletes) for the purpose of benefiting another,

19
presumably a more important class of people (the
consumers of college athletics, in particular the
viewers of televised men's football and basketball
games)." Tibor Nagy, The "Blind Look" Rule of Reason:
Federal Courts' Peculiar Treatment of NCAA
Amateurism Rules, 15 Marq. Sports L. Rev. 331, 36667 (2005).
B. This Court Has Directed the Lower
Courts to Refrain from Unbounded
Cost-Benefit Analysis Under the Rule
of Reason
The Ninth Circuit's decision also is contrary to
this Court's directive against broad, cross-market costbenefit analysis under the rule of reason. Rejecting
judicial measuring of social debits and credits through
the Sherman Act, this Court wrote: "If a decision is to
be made to sacrifice competition in one portion of the
economy for greater competition in another portion
this too is a decision that must be made by Congress
and not by private forces or by the courts." United
States v. Topco Associates, Inc., 405 U.S. 596, 611
(1972).
To assure the Sherman Act's protection of
multiple classes, the rule of reason is restricted to a
challenged restraint's costs and benefits for only the
affected class in the relevant market. The rule of
reason's lens is circumscribed, not unbounded:
Contrary to its name, the Rule does not open the
field of antitrust inquiry to any argument in
favor of a challenged restraint that may fall
within the realm of reason. Instead, it focuses
directly on the challenged restraint's impact on
competitive conditions.
*

*

20
[T]he purpose of [antitrust] analysis is to form a
judgment about the competitive significance of
the restraint; it is not to decide whether a policy
favoring competition is in the public interest, or
in the interest of the members of an industry.
Subject to exceptions defined by statute, that
policy decision has been made by the Congress.
Professional Engineers, 435 U.S. at 688, 692.6
Shortly after Professional Engineers, the D.C.
Circuit applied the rule of reason to a labor market
restraint in professional sports and rejected
unbounded rule of reason analysis. Smith v. Pro
Football, Inc., 593 F.2d 1173, 1186 (D.C. Cir. 1978).
Although Pro Football's draft was "anticompetitive in
its effect on the market for players' services," the
league argued it produced "playing-field equality
among the teams," "better entertainment for the
public," "higher salaries for the players," and
"increased financial security for the clubs." Id. at 1186.
Because these supposedly "procompetitive" benefits
did "not increase competition in the economic sense of
encouraging others to enter the market and to offer the
product at lower cost," id., they could not be balanced
Consider this Court's adoption of the rule of reason for vertical
restraints governing retail markets. These decisions have not
broadened the scope of the rule of reason. Instead, the Court
considers the relevant costs and benefits borne by or accruing to
the directly affected group—merchants or consumers affected by
the vertical restraints. See, e.g., Continental T.V., Inc. v. GTE
Sylvania Inc., 433 U.S. 36, 54-59 (1977) (holding vertical nonprice restraints subject to the rule of reason and, in effect,
requiring gains in interbrand competition to be weighed against
reduction in intrabrand competition in the relevant consumer
product markets); Leegin Creative Leather Products, Inc. v.
PSKS, Inc., 551 U.S. 877, 897-99 (2007) (same with respect to
minimum vertical price restraints).
6

21
against the draft's anticompetitive effect. "This," the
court of appeals wrote, was "precisely the type of
argument that the Supreme Court only recently ha[d]
declared to be unavailing" in Professional Engineers.
Smith, 593 F.2d at 1186.
Likewise, in evaluating the legality of mergers
under the Clayton Act, this Court has restricted the
scope of analysis. The Court held that "a merger the
effect of which may be substantially to lessen
competition is not saved because, on some ultimate
reckoning of social or economic debits and credits, it
may be deemed beneficial." United States v.
Philadelphia National Bank, 374 U.S. 321, 371 (1963)
(citation omitted).
From an institutional perspective, the courts
are ill-equipped to engage in a broad cost-benefit
analysis through the rule of reason. This Court has
recognized that such balancing requires a weighing of
values and evaluating economic, political, and social
considerations—a task appropriately reserved for
legislators:
If a decision is to be made to sacrifice
competition in one portion of the economy for
greater competition in another portion this too
is a decision that must be made by Congress and
not by private forces or by the courts. Private
forces are too keenly aware of their own
interests in making such decisions and courts
are ill-equipped and ill-situated for such
decisionmaking. To analyze, interpret, and
evaluate the myriad of competing interests and
the endless data that would surely be brought
to bear on such decisions, and to make the
delicate judgment on the relative values to
society of competitive areas of the economy, the

22
judgment of the elected representatives of the
people is required.
Topco, 405 U.S. at 611-12. This type of cost-benefit
analysis also introduces significant administrative
difficulties and risks severely weakening antitrust
law. Daniel A. Crane, Balancing Effects Across
Markets, 80 Antitrust L.J. 397, 409-10 (2015). See also
Rebecca Haw Allensworth, The Commensurability
Myth in Antitrust, 69 Vand. L. Rev. 1, 21-22 (2016)
(observing the difficulties of balancing costs and
benefits to different groups).
In his concurrence below, Judge Smith, warned
that this balancing is inevitably fraught with peril.
Courts "must—implicitly or explicitly—make value
judgments by determining whether competition in the
collateral market is more important than competition
in the defined market." Pet. App. 64a (No. 20-512).
Likewise, the D.C. Circuit rejected open-ended costbenefit analysis in condemning professional football's
draft: "The draft's 'anticompetitive evils,' in other
words, cannot be balanced against its `procompetitive
virtues,' and the draft be upheld if the latter outweigh
the former." Smith, 593 F.2d at 1186.
Through an unbounded rule of reason, the
district court, and thereafter the Ninth Circuit, made
policy choices appropriately reserved for legislators
who, unlike judges, are democratically accountable. In
balancing the restraint's harms to college athletes
against its benefits to viewers of college sports, the
court of appeals improperly chose "to sacrifice
competition in one portion of the economy for greater
competition in another portion[,]" Topco, 405 U.S. at
611, and usurped legislative prerogatives.

23
III. The Ninth Circuit Should Have
Considered Only the Restraint's Harms
and Benefits to College Basketball and
Football Players
The court of appeals should have limited its rule
of reason analysis of the NCAA's restraints to the
effects on college basketball and football players. This
approach ensures that the Sherman Act fully protects
sellers, as this Court's precedents establish. It also
ensures that the federal courts avoid making openended judgments that they are ill-equipped to make
and that are appropriately entrusted to the
legislature. Indeed, because the NCAA's restraints—
horizontal limits on player compensation—amount to
wage-fixing agreements among employers, they
should be summarily condemned under the rule of
reason in the "twinkling of an eye." National Collegiate
Athletic Ass'n v. Board of Regents of Univ. of Okla., 468
U.S. 85, 109 n.39 (1984).
Once the college athletes established a prima
facie case, the court of appeals should have evaluated
only offsetting benefits of the restraints, if any, to
them. The court should have confined its analysis to
credible benefits in the affected market—the market
for college basketball and football players' services. It
should not have considered the NCAA's argument that
the challenged restraints benefit college sports fans.
The question whether restraints on college athletes'
compensation increase, for example, the value of
college sports to viewers falls outside of a proper rule
of reason analysis.?
7 While the college athletes presented three relevant labor
markets, showed that the petitioners dominated all three
markets, and demonstrated that the NCAA's restraints harmed
them, the college athletes could have also made out a prima facie

24
A bounded rule of reason analysis ensures that
the Sherman Act protects "all who are made victims" of
antitrust violations, including sellers of services such as
the college athletes here. Mandeville Island Farms, 334
U.S. at 236 (emphasis added). This approach would
prevent the NCAA and other powerful buyers from
injuring college athletes and other sellers through
restraints of trade and overcoming presumptive
illegality by showing benefits to another group. By
considering only harms and benefits to sellers, this rule
of reason analysis places sellers on an equal footing
with buyers under the Sherman Act—as Congress
intended, and as this Court's precedents hold it does. As
so bounded, the rule of reason not only "protect[s] the
economic freedom of participants in the relevant
market[,]" Knevelbaard Dairies, 232 F.3d at 988
(quoting Associated General Contractors of Cal., Inc. v.
Cal. State Council of Carpenters, 459 U.S. 519, 538
(1983)), but also entrusts broader economic, social, and
political judgments to Congress and state legislatures.
A rule of reason analysis need not be exhaustive
under all circumstances, but can, sometimes, "be
applied in the twinkling of an eye." Board of Regents,
468 U.S. at 109 n.39. See also California Dental
Association v. FTC, 526 U.S. 756, 781 (1999). The
NCAA's restraints resemble those condemned with an
case by showing the NCAA's restraints had adverse effects, such
as reduced compensation for college basketball and football
players, in the labor markets. See FTC v. Ind. Federation of
Dentists, 476 U.S. 447, 460-61 (1986) (citations omitted) ("Since
the purpose of the inquiries into market definition and market
power is to determine whether an arrangement has the potential
for genuine adverse effects on competition, proof of actual
detrimental effects, such as a reduction of output, can obviate the
need for an inquiry into market power, which is but a surrogate
for detrimental effects.").

25
abbreviated analysis under the rule of reason. The
Tenth Circuit affirmed a "quick look" condemnation of
the NCAA's restraints capping the compensation of
assistant coaches in men's basketball. Law, 134 F.3d
at 1020, 1024. Other courts have similarly invalidated
restraints that limit horizontal competition between
actual or potential competitors without a full reason of
reason inquiry. For instance, the D.C. Circuit stated
that "[a]n agreement between joint venturers to
restrain price cutting and advertising with respect to
products not part of the joint venture looks
suspiciously like a naked price fixing agreement
between competitors, which would ordinarily be
condemned as per se unlawful." Polygram Holding,
Inc. v. FTC, 416 F.3d 29, 37 (D.C. Cir. 2005).
Given the close resemblance between these per
se illegal horizontal agreements and the NCAA's
restraints, at most an abbreviated rule of reason
analysis is warranted here. See Law, 134 F.3d at 1020
(applying quick look rule of reason "where the plaintiff
shows that a horizontal agreement to fix prices exists,
that the agreement is effective, and that the price set
by such an agreement is more favorable to the
defendant than otherwise would have resulted from
the operation of market forces.").8
IV.

The NCAA Cannot Evade the Sherman
Act by Using Special Labels or Citing
A History of Trade Restraints
The NCAA and its conferences invoke "joint
venture," "amateurism," and the history of the
intercollegiate system to defend their existing
Indeed, but for the framing of the issues in this Court and an
expansive reading of dictum in Board of Regents, the NCAA's
restraints should fall as per se illegal. See p. 9, n.4, supra.

8

26
restraints of trade and immunize them from the
antitrust laws. But these arguments are unavailing.
Antitrust defendants cannot use special labels or
invoke a history of violation to justify restraining trade.
If this Court were to adopt the position of the NCAA
and its conferences, it would empower corporations to
unilaterally escape the prohibitions of antitrust law or
to limit its application merely by using special labels.
Exemptions are the province of Congress—not of
private parties or the federal judiciary.
This Court has long held that labels such as
"joint ventures" cannot immunize horizontal collusion
from the Sherman Act. The relevant question for courts
is substance, not labels. A joint venture is subject to
Sherman Act scrutiny if "the agreement joins together
`independent centers of decisionmaking."' American
Needle, Inc. v. National Football League, 560 U.S. 183,
196 (2010). As the Court wrote in American Needle,
which involved the National Football League and
concerted action among its teams: "Any joint venture
involves multiple sources of economic power
cooperating to produce a product. . . . But that does not
mean that necessity of cooperation transforms
concerted action into independent action." Id. at 199.
Accordingly, in deciding whether parties have
run afoul of the Sherman Act, courts "seek the central
substance of the situation, not its periphery, and in
this pursuit, we are moved by the identity of the
persons who act, rather than the label of their hats."
United States v. Sealy, Inc., 388 U.S. 350, 353 (1967).
Thus, on many occasions this Court has applied
antitrust scrutiny where a single entity was
"controlled by a group of competitors and served, in
essence, as a vehicle for ongoing concerted activity."
American Needle, 560 U.S. at 191.

27
The NCAA's appeal to "amateurism" is equally
unhelpful to properly resolving this case. Like the joint
venture label, "amateurism" obscures, rather than
clarifies, the substance of the NCAA's restraints on
player compensation. These restraints are the product
of "ongoing concerted activity" by competitors on
player compensation—and, therefore, typically
condemned as illegal under the per se rule or, at most,
under a "quick look" analysis. And they are not rescued
by this Court's language in Board of Regents about
amateurism, which is dictum—an observation about
the character of NCAA intercollegiate athletics that
was not necessary nor relevant to the decision's
holding. Board of Regents, 468 U.S. at 129
(invalidating rules restricting television broadcasting
of college football games). This dictum is not nearly
enough to displace the antitrust laws.
" [R] ep e als by implication are disfavored,"
United States v. Borden Co., 308 U.S. 188, 198 (1939),
and antitrust immunity "is not lightly implied."
California v. FPC, 369 U.S. 482, 485 (1962). The
presumption against repeal by 'implication is strong
when the potential conflict is between the federal
antitrust laws and a federal regulatory scheme. "Only
where there is a plain repugnancy between the
antitrust and regulatory provisions will repeal be
implied." Gordon v. New York Stock Exchange, Inc.,
422 U.S. 659, 682 (1975) (cleaned up). This
presumption should be absolute when a private
litigant like the NCAA seeks to evade the antitrust
laws by claiming a conflict between the federal
antitrust laws and its own private contractual scheme.
Similarly, the NCAA's long history of trade
restraints against college athletes is no defense. A longstanding violation of the Sherman Act—or of any law
for that matter—is no basis for claiming immunity or

28
even a right to more limited legal scrutiny: "a history of
concerted activity does not immunize conduct from § 1
scrutiny." American Needle, 560 U.S. at 198. The
restraint on competition among potential rivals—here,
competition among NCAA members for athletic
talent—is itself sufficient for antitrust condemnation.
As this Court has held, market allocation agreements
are per se illegal, "regardless of whether the parties
split a market within which both do business or
whether they merely reserve one market for one and
another for the other." Palmer v. BRG of Georgia, Inc.,
498 U.S. 46, 49-50 (1990) (per curiam). See also
Freeman v. San, Diego Ass'n of Realtors, 322 F.3d 1133,
1149 (9th Cir. 2003) ("Absence of actual competition
may simply be a manifestation of the anticompetitive
agreement itself."); City of Mt. Pleasant v. Associated
Electric Co-op., Inc., 838 F.2d 268, 276 (8th Cir. 1988)
(holding that, in cases under Section 1 of the Sherman
Act, a critical inquiry is whether "any two of the
defendants are, or have been, actual or potential
competitors") (emphasis added).
If this Court were to allow the NCAA to use
labels and its own history to justify its conduct, the
Sherman Act would become a dead letter. Firms and
associations of firms could unilaterally exempt
themselves from the Sherman Act and other antitrust
laws by adopting benign-sounding labels for their
illegal conduct and invoking their history of
lawbreaking. Enabling private prerogative to override
federal legislation would make a mockery of the rule of
law. Timken Roller Bearing Co. v. United States
recognized as much:
Nor do we find any support in reason or
authority for the proposition that agreements
between legally separate persons and
companies to suppress competition among

29
themselves and others can be justified by
labeling the project a 'joint venture.' Perhaps
every agreement and combination to restrain
trade could be so labeled.
341 U.S. 593, 598 (1951), overruled on other grounds
by Copperweld Corp. v. Independence Tube Corp., 467
U.S. 752 (1984). Because "[p]rivate forces are too
keenly aware of their own interests in making such
decisions," Topco, 405 U.S. at 611, they cannot be
entrusted with legislative judgments.
The scope of the antitrust laws is a matter for
Congress to decide. When Congress wishes to
authorize competitor coordination otherwise
impermissible under the antitrust laws, "it has done
so expressly by legislation." Associated Press v. United
States, 326 U.S. 1, 14 (1945). This prerogative of
Congress should be respected here. See also Andrus v.
Glover Construction Co., 446 U.S. 608, 616-17 (1980)
("Where Congress explicitly enumerates certain
exceptions to a general prohibition, additional
exceptions are not to be implied, in the absence of
evidence of a contrary legislative intent.").
CONCLUSION
The Sherman Act protects sellers of goods and
services, including workers, from buyers' restraints of
trade. In applying the rule of reason, the Ninth Circuit
subverted the Sherman Act's protection of sellers of
goods and services and disregarded this Court's
guidance against turning the rule of reason into an
unbounded social cost-benefit analysis. While the
Ninth Circuit correctly affirmed the NCAA's Sherman
Act liability, it should have evaluated only the
challenged restraint's harms and benefits to the
college athletes—and not considered its effects on

30
other groups. Because the court of appeals concluded
that the challenged restraints had no benefit to college
basketball and football players, the court should have
enjoined all NCAA compensation restraints and not
searched for a less restrictive alternative under the
rule of reason.
Dated: March 10, 2021
Respectfully submitted,
JAY L. HIMES
Counsel of Record
LABATON SUCHAROW LLP
140 Broadway
New York, NY 10005
(212) 907-0700
jhimes@labaton.com
SANDEEP VAHEESAN
OPEN MARKETS INSTITUTE
1440 G Street, NW
Washington, DC 20005
NAJAH FARLEY
NATIONAL EMPLOYMENT
LAW PROJECT
90 Broad Street, Suite 1100
New York, NY 10004
MARKA PETERSON
STRATEGIC ORGANIZING
CENTER
1900 L Street, NW Suite 900
Washington, DC 20036
Counsel for Amici Curiae

